                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: 1-09080047                                                                       Page 1 of 1



         We conducted an investigative review to determine the validity of expenditures charged to an
         NSF award. l Based upon an analysis of related financial-documentation, we concluded that
         award funds were expended by the grantee institution2 in accordance with NSF's terms and
         conditions.

         In light of the above, no further investigative effort is necessary in this matter.

         Accordingly, this case is closed.




         2




NSF OIG Form 2 (1lI02)
